CERTIFICATE OF SERVICE:
A copy of the petition for a Writ of Certioria has been sent June 9th, 2021, by priority mail to
UNITED STATES
Defendant - Appellee

/s/ RovJ. Meidinger

Antonia Ramos Soares, Esq., Direct: (202) 305-7405
Email: antonia.soares@usdoj.gov
[LD NTC Government]
Department of Justice
Commercial Litigation Branch, Civil Division
PO Box 480
Ben Franklin Station
Washington, DC 20044
Patricia M. McCarthy, Assistant Director
Email: patricia.mccarthy@usdoj.gov
[COR Government]
Department of Justice
Commercial Litigation Branch, Civil Division
PO Box 480
Ben Franklin Station
Washington, DC 20044

